No:

IN THE
SUPREME COURT OF THE UNITED STATES

SETPf JOHNVJlLCOX- PETITIONER
VS.

STATE OF WASHINGTON- RESPONDENT

PROOF OF 5ERYICE
I, Sefh iohn Wi’lcovr, do stoeox or declare Fhod- on Phis daPe, fhe 11 ^ day of
5epPember ,26210, as required by Supreme Courf Rule 2H, X have served fbe
enclosed MOTION FoR LEAVE TO PROCEED //!/ FORMA PAUPERIS and
PETITION FOR AN EXTRAORDINARY WRIT OF MANDAMUS AND/OR
PROHIBITION fo each par+y to Phe above proceeding or Phaf parpy's counsel,
and every afher person veyuired Po Be Served, by mailing The above. documenPs via
UnHed Spades mail, cuilh Firsf class prepaid posPage, properly addressed, -foeach
of Phem, | isfed as follows:
Jag Tns/ce
Governor Office

416 14* Ave SW
, O/y impia* W A. ^SSoA

Roberf Vo. Ferguson
A-)4ornev Genera! Office
P.o. Box 401 (6

O/ymptfl. ;WA. tf&SoA-Qllij

X declare under penaHy of perjury fhaMhe foregoing 'sprue and correct
ExecuPed on Phe 27"dag of September, paad

(3-dthJi uJltcul

